NO. _________________

IN THE SUPREME COURT OF THE UNITED STATES

SARINA ANN WILLIAMS,
Petitioner
vs.
UNITED STATES OF AMERICA,
Respondent.

PROOF OF SERVICE

I, J. Keith Rigg, do swear or declare that on this date, August 25, 2020, as
required by Supreme Court Rule 29 I have served the enclosed Motion for Leave to
Proceed in Forma Pauperis and Petition for a Writ of Certiorari on each party to the
above proceeding or that party’s counsel, and on every other person required to be
served, by depositing an envelope containing the above documents in the United
States mail properly addressed to each of them and with first-class postage prepaid,
or by delivery to a third-party commercial carrier for delivery within 3 calendar days.
The names and addresses of those served are as follows:

Solicitor General of the United States
Room 5616, Department of Justice
950 Pennsylvania Ave., N.W.
Washington, D. C. 20530–0001
Mr. Mark Krickbaum
United States Attorney Southern District of Iowa
Ms. Virginia M. Bruner
Assistant United States Attorney Southern District of Iowa
U.S. Courthouse Annex, Suite 286
110 East Court Avenue
Des Moines, Iowa 50309
Counsel for Respondent.
I declare under penalty of perjury that the foregoing is true and correct.
Executed on August 25, 2020.
Respectfully Submitted

/s/
____________________________________
J. Keith Rigg
317 Sixth Avenue, Suite 1300
Des Moines, Iowa 50309
Telephone: (515) 284-7930
Email: jkrigg@dwx.com
COUNSEL OF RECORD FOR
PETITIONER SARINA ANN WILLIAMS

